No.

IN THE
SUPREME COURT OF THE UNITED STATES

Elizabeth Maya
— PETITIONER
(Your Name)
VS.

Deutsche Bank National Trust Company.,Etc
— RESPONDENT(S)
PROOF OF SERVICE

I. Elizabeth Maya
______ __________ , do swear or declare that on this date,
September 14. 2021
, as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Lapin & Leichtling., Benjamin Carter., 255 Alhambra Circle, Suite 600, Coral Gables, Florida 33134
Arnold Maya., 13370 sw 91 Terr 3 D, Miami, FLORIDA 33186

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 14.2021

cvK'v .
(Signature)

a

T7

